GR-50-98-029
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs

Boot Camp Construction Grant

Administered by the Illinois Department of Corrections
Award Number 95-SCLX-0040
 
GR-50-98-029
 
August 27, 1998
 

 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of boot camp construction grant 95-SCLX-0040 awarded by the U.S. Department of
Justice, Office of Justice Programs, to the Illinois Department of Corrections (IDOC) for
the period September 1, 1995 through August 31, 1997. The grant was awarded in the amount
of $1,928,770 and was extended through September 30, 1998. Our audit covered the period of
September 1, 1995 through June 1, 1998. We tested the accuracy and reliability of the IDOC
accounting system, reviewed the General Ledger, and evaluated the allowability and
allocability of costs. Generally, IDOC properly managed the grant; however, our audit
revealed the following:

Net interest of $1,195 earned on grant advances was not reported as
    program income.

The federal share of outlay reported on the Financial Status Reports and
    Requests for Reimbursement/Advance was inaccurate. 


These items are discussed in the Findings and Recommendations section of
the report. Our scope and methodology appear in Appendix I.
#####